U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 29, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Johnny Gatewood v. United States, No. 20-1233
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 2, 2021.
The government’s response is now due, after one extension, on May 7, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
May 21, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1233
GATEWAY, JOHNNY
USA

NEAL KUMAR KATYAL
HOGAN LOVELLS US LLP
555 THIRTEENTH STREET, N.W.
WASHINGTON, DC 20004
202-637-5600
NEAL.KATYAL@HOGANLOVELLS.COM
MEGAN KEENAN
COVINGTON & BURLING LLP
ONE CITYCENTER
850 TENTH STREET, NW
WASHINGTON, DC 20001-4956
202-662-5683
MKEENAN@COV.COM
MARK W. MOSIER
COVINGTON & BURLING, LLP
ONE CITY CENTER
850 TENTH STREET, NW
WASHINGTON, DC 20001
202-662-5435
MMOSIER@COV.COM
MICHAEL PEPSON
AMERICANS FOR PROSPERITY
1310 N. COURTHOUSE ROAD
SUITE 700
ARLINGTON, VA 22201
MPEPSON@AFPHQ.ORG

DORIS A. RANDLE-HOLT
FEDERAL PUBLIC DEFENDER FOR THE WDTN
200 JEFFERSON
SUITE 200
MEMPHIS , TN 38103
901-544-3895
DORIS_HOLT@FD.ORG

